HHS/OIG, Audit -"First Coast Service Options, Inc., President's Council on Integrity and Efficiency Debt Collection Initiative,"(A-04-01-03002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"First Coast Service Options, Inc., President's Council on Integrity and Efficiency Debt Collection Initiative," (A-04-01-03002)
November 6, 2001
Complete
Text of Report is available in PDF format (822 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to:  (1) determine the amount
of non-tax delinquent debt owed to Medicare that existed at September 30, 2000; and (2) assess the collectibility of
the delinquent debt at the contractor level for the same period.  The accounts receivable balances First Coast Service
Options, Inc., (FCSO) reported to the Centers for Medicare & Medicaid Services (CMS) for financial statement purposes
for the period ending September 30, 2000 for Part A (non-Medicare Secondary Payor (MSP) and MSP) accounts receivable
was $309,333,980 and the balance for Part B (non-MSP and MSP) was $129,570,480.  Our reconciliation of the subsidiary
accounts to the general account showed the Part B non-MSP was overstated over $9 million.  Other audit tests we
performed on statistical samples of Part A non-MSP and Part B non-MSP balances showed the vast majority of receivables
were recorded, supported, complete, properly valued and existed at September 30, 2000.  However, we did recommend
that the contractor:  (1) reduce four Part A balances totaling over $33 thousand and two Part B balances totaling
over $144 thousand; (2) correct status codes on seven Part A and one Part B balances to show the accurate location of
the balances; and (3) establish a system of internal control that will provide adequate and timely tracking of its collection
activities.  Contractor officials generally agreed with our findings and recommendations.